Final Assessment Report 08-01, November 1, 2007, “GPO Network Vulnerability
Assessment”

The GPO Office of Inspector General (OIG) completed a vulnerability assessment of the
GPO enterprise network infrastructure to evaluate the level of security controls in place
that help protect the Agency’s information technology (IT) resources from unauthorized
access and compromise. We conducted our assessment using vulnerability scanning tools
the OIG selected and the GPO Information Technology and Systems Security Division
approved. We limited our assessment to the area between GPO’s Internet service
provider and the outermost firewall interface where GPO’s publicly available network
resources, such as GPO Access, are hosted. That area is commonly referred to as the
demilitarized zone, or DMZ. Our specific assessment objectives were to determine
whether GPO:

   •   Maintained a robust and effective vulnerability scanning and management
       program that identified and circumvented common internal and external threats to
       its network.

   •   Used passwords in the DMZ strong enough to prevent brute force attacks.

   •   Patched systems in the DMZ in a timely and effective manner.

The OIG issued a sensitive report that found room for improvement and made
recommendations to help strengthen security of the publicly available network resources
at GPO, but also reduce the risk of system compromise and loss of availability. GPO
management concurred with each of the report’s recommendations and has initiated
responsive corrective actions.
